TN

C@OQCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831

Fax: (402) 342-4850 No. 19-1115

AMERICAN BANKERS ASSOCIATION,

Petitioner,

v.
NATIONAL CREDIT UNION ADMINISTRATION,

Respondent.

AFFIDAVIT OF SERVICE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 10th day of April, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE CENTER FOR
CONSTITUTIONAL JURISPRUDENCE IN SUPPORT OF PETITIONER in the above entitled case. All parties required to

be served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly

addressed to the following:

SEE ATTACHED

To be filed for:
JOHN C. EASTMAN
Counsel of Record
ANTHONY T. CASO
Center for Constitutional
Jurisprudence
c/o Fowler School of Law
Chapman University
One University Drive
Orange, CA 92866
(877) 855-3330
jeastman@chapman.edu

Counsel for Amicus Curiae

Subscribed and sworn to before me this 10th day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

Q, Lesa Qudrav-h. Ghhe

 

A GENERAL HOTARY State of Bebraska
RENEE J. GOSS
My Comm. Exp. September 6, 2023

   

Notary Public /

Affiant
 

Attorneys for Petitioner

Robert Allen Long Jr. Covington & Burling, LLP 202-662-5612
Counsel of Record One CityCenter
850 Tenth St., NW
Washington, DC 20001

rlong@cov.com

Party name: American Bankers Association

 

Attorneys for Respondent

Noel J. Francisco Solicitor General 202-514-2217
Counsel of Record United States Department of Justice
Room 5616

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

SupremeCtBriefs@USDOJ.gov

Party name: National Credit Union Administration

 

 

 
